Exhibit I

Legal Assistants
ASB represents the time of legal assistant Aaron S. Blair who works in our black
lung department. He is currently a college student at UVa Wise. He gathers and
organizes all the evidence in preparation for the hearings. He also contacts clients
about upcoming hearings. Aaron attended the 2017 Black Lung Conference hosted
by the West Virginia Black Lung Clinics Program in Pipestem, West Virginia.
MJT represent the time of legal assistant, Michael J. Turner, who is a legal assistant
with our office. He has worked on social security cases for several years: September
16, 1996 to March 28, 1998, October 18, 1999 to June 31, 2000 and from July 22,
2002 to present. He schedules social security hearings; he maintains our firm’s
master calendar, takes calls, makes copies, prepares letters and travels to other
offices to work on cases. He enters and scans our black lung circuit court cases and
places them on our master calendars. He is the Prehearing and Schedule supervisor
for the social security department.
NAH represents the time of legal assistant Nickie Hoffman who started working here
in September, 2014. She started off in our accounting department and now primarily
works in our black lung department. She helps to organize case files, contact clients,
and get paperwork ready for hearings. She attended the 2017 Black Lung
Conference hosted by the West Virginia Black Lung Clinics Program in Pipestem,
West Virginia.

